 

2311 Douglas Street

COCKLE

Legal Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-181
LANCE PATTERSON,
Petitioner,
Vv.
INDIANA FAMILY AND
SOCIAL SERVICES ADMINISTRATION,
Respondent.
AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 21st day of November, 2019, send
out from Omaha, NE | package(s) containing 3 copies of the REPLY BRIEF in the above entitled case. All parties required
to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

JACOB V. BRADLEY
QUARLES & BRADY LLP

DENNIS K. FRICK
Counsel of Record

135 North Pennsylvania Street ADAM MUELLER
Suite 2400 INDIANA LEGAL SERVICES,
Indianapolis, IN 46204 INC.
(317) 957-5000 151 North Delaware Street
Suite 1800
Counsel for Petitioner Indianapolis, IN 46204
(317) 829-3075

dennis.frick@ilsinet

Subscribed and sworn to before me this 21st day of November, 2019.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

ae EC Clie Qndeaw hk, Chole

My Commission Expires Nov 24, 2020

 

Notary Public Affiant 39027
SERVICE LIST

Curtis T. Hill, Jr.

Attorney General of Indiana
Thomas M. Fisher

Solicitor General

Counsel of Record

Aaron T. Craft

Section Chief, Civil Appeals
Kian J. Hudson

Deputy Solicitor General
Julia C. Payne

Deputy Attorney General
Office of the Attorney General
IGC South, Fifth Floor
302 West Washington Street
Indianapolis, IN 46204
317.232.4774
Tom.Fisher@atg.in.gov
Counsel for Respondent, Indiana Family and Social Services Administration:
